                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




      AGREED-UPON PROCEDURES REVIEW OF
    CORPORATION FOR NATIONAL AND COMMUNITY
          SERVICE GRANT AWARDED TO
        AMERICAN NATIONAL RED CROSS

              OIG REPORT NUMBER 10-12




                        Prepared by:

                   Clifton Gunderson LLP
                   11710 Beltsville Drive
                   Calverton, MD 20705




This report was issued to Corporation management on May 14, 2010. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than November 14, 2010, and complete its corrective actions by May 14, 2011.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                          May 14, 2010


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 10-12, Agreed-Upon Procedures Review of Corporation for National
               and Community Service Grant Awarded to American National Red Cross


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Clifton Gunderson LLP (Clifton) to
perform the procedures. The contract required Clifton to conduct its review in accordance with
generally accepted government auditing standards.

Clifton is responsible for the attached report, dated February 24, 2010, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Award and
Claimed Costs, or the Schedule of Award and Claimed Costs for each subgrantee, conclusions
on the effectiveness of internal controls, or the grantee’s compliance with laws, regulations, and
grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by November 14, 2010. Notice of final action is due by May 14, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     Meghan Smith, Senior Program Associate, ANRC
        William Anderson, Acting Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
          Management, CNCS
        Bridgette Roy, Administrative Assistant, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Denise Wu, Partner, Clifton Gunderson LLP




                1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                    202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                       AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
                         AWARDED TO THE AMERICAN NATIONAL RED CROSS




                                         TABLE OF CONTENTS

                                                                                                       PAGE

EXECUTIVE SUMMARY                                                                                         1

INDEPENDENT ACCOUNTANT’S REPORT                                                                           4

CONSOLIDATED SCHEDULE OF AWARD AND CLAIMED COSTS                                                          5

NOTES TO CONSOLIDATED SCHEDULE OF AWARD AND CLAIMED COSTS                                                 6

SCHEDULE A – SCHEDULE OF AWARD AND CLAIMED COSTS BY
             GRANTEE/SUBGRANTEE                                                                           7

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS: SAN
             FRANCISCO CHAPTER                                                                            8

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS: CHICAGO
             CHAPTER                                                                                      9

SCHEDULE D – SCHEDULE OF AWARD AND CLAIMED COSTS: CHARLOTTE
             CHAPTER                                                                                     11

SCHEDULE E – SCHEDULE OF FINDINGS ....................................................................... 13


APPENDIX A:          AMERICAN NATIONAL RED CROSS RESPONSE TO DRAFT REPORT

APPENDIX B:          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                     RESPONSE TO DRAFT REPORT




                                                      i
                                     Executive Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Clifton Gunderson LLP (auditors) to perform agreed-upon
procedures on the grant expenditures, terms and provisions (including compliance with
applicable laws and regulations) for Corporation-funded Federal assistance provided to the
American National Red Cross (ANRC).

Results

As a result of applying the procedures, the auditors questioned claimed Federal-share costs of
$45,914, match costs of $32,594, education awards of $14,175, and $2,002 in interest
forbearance. A questioned cost is an alleged violation or non-compliance with grant terms
and/or provisions of laws and regulations governing the expenditure of funds; or a finding that,
at the time of testing, adequate documentation supporting a cost item was not readily available.
The results of our agreed-upon procedures are summarized in the Consolidated Schedule of
Award and Claimed Costs.

ANRC claimed total Federal costs of $1,559,135 and total match costs of $1,198,477 from July
28, 2007, through July 27, 2009, for Grant No. 06NDHHDC001. Based on testing a
judgmentally selected sample of transactions, the auditors questioned claimed costs as detailed
below:

                                               Federal   Education     Interest     Match
           Type of Questioned Costs             Share     Award      Forbearance    Share
   Time Sheet Exceptions                        $2,939     $ 4,725          $   -   $ 2,068
   National Sex Offender Search was
   incomplete or missing                        42,704       9,450          2,002     30,421
   Members did not receive consistent living
   allowance                                       271           -             -        105
                                     Totals    $45,914     $14,175        $2,002    $32,594

Participants who successfully complete the term of service for the AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest awards funded by the
Corporation’s National Service Trust. These award amounts are not funded by the Corporation
grants and thus are not included in the claimed grant costs. However, at grant award, these
amounts become immediate obligations of the National Service Trust. Therefore, as part of our
agreed-upon procedures (AUP), and applying the same criteria used for the grantee’s claimed
costs, we determined the effect of our findings on AmeriCorps members’ entitlement to
education and accrued interest awards.

The auditors compared the inception-to-date drawdown amounts with the amounts reported in
the last Federal Financial Report (FFR) for the period tested and determined that the
drawdowns were reasonable.

We questioned $14,175 in education awards and $2,002 in interest forbearance because the
members lacked completed National Sex Offender checks or adequate support for certified
hours of service. We did not verify whether the members used the education awards, as it is
outside the scope of the AUP. The interest forbearance amount is generated from the National
Service Participant’s Award and Payment Activities report, dated January 28, 2010, that the OIG
provided to address those education awards that were questioned.

                                               1
Details of the questioned costs, grant awards, non-compliance with grant provisions, applicable
laws and regulations are presented in the Schedule of Findings that follows the results of our
agreed-upon procedures, which are summarized below.

    Controls not fully implemented over reporting and recording of Federal share costs;

    Lack of adequate procedures to ensure program compliance, such as late criminal
     background checks, incomplete National Sex Offender searches, unequal payment of
     living allowances, and health benefits not provided to members;

    Timesheets not signed by supervisors or the members; and late submission of Exit/End-
     of-Term-of-Service member form;

    Lack of documentation to support members’ attendance at pre-service orientation; and

    Non-compliance with the travel policy, record retention requirements, and submission
     requirements for the Federal Financial Report.

Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of 1993
(as amended), awards grants and cooperative agreements to State commissions, nonprofit
entities, and tribes and territories to assist in the creation of full- and part-time national and
community service programs. Through these grantees, AmeriCorps members perform service
to meet educational, human, environmental, and public safety needs throughout the nation. In
return, eligible members may receive a living allowance and post-service education benefits.

The ANRC received its first congressional charter in 1900 and a second in 1905. ANRC is a
Federally chartered instrumentality of the United States. This charter, which remains in effect
today, sets forth the purpose of the organization that includes giving relief to and serving as a
medium of communication between members of the armed forces and their families, and
providing national and international disaster relief and mitigation. ANRC works closely with the
Federal Government in the promotion of the Federal Government’s objectives. However, ANRC
is an independent, volunteer-led organization that is financially supported by voluntary public
contributions and cost-reimbursement charges. The ANRC Board of Governors is comprised of
50 all-volunteer members. The President of the United States is the honorary chairman of the
ANRC. He appoints eight governors, including the chairman of the board. The chairman
nominates and the board elects the president of the ANRC, who is responsible for implementing
and maintaining the policies and programs of the board. The ANRC is subject to the Single
Audit Act and received unqualified opinions on its financial statements, and no findings were
identified relating to AmeriCorps funding.

The mission of the ANRC’s National Preparedness and Response Corps (NPRC) program is to
provide vital emergency assistance to communities affected by disasters and to increase
preparedness before disaster strikes. This is done by recruiting, training, and supporting young
adults who will provide integrated community outreach and education through ANRC service
activities that focus on Homeland Security and the role of ANRC in supporting the National
Response Plan.



                                                2
ANRC awarded funds to 18 subgrantees (ANRC Chapters) in Program Year (PY) 2007-2008
and 17 subgrantees in PY 2008-2009 covered in our scope. The subgrantees used the funds to
support their operations and provide member support. The subgrantees maintain supporting
documentation for the claimed costs and member files. ANRC submitted its monthly Periodic
Expense Report (PER) to the Corporation’s Web-Based Reporting System (WBRS) until the
end of PY 2007 – 2008 (9/30/08). After that, WBRS was no longer used for that purpose.
ANRC prepares the aggregate Federal Financial Report (FFR) for the grant by accumulating the
expenses reported on subgrantees’ and ANRC’s PERs. ANRC submits its FFR for its
AmeriCorps grant through the Corporation’s online eGrants system.

ANRC monitors its subgrantees by reviewing member information, reimbursement requests,
performing site visits and desk reviews, and through regular communication.

ANRC claimed Federal costs, totaling $1,559,135, during the scope of this engagement.

Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period September 4, 2009,
through January 31, 2010. The agreed-upon procedures covered the allowability, allocability,
and reasonableness of the financial transactions reported between July 28, 2007, and July 27,
2009, for grant number 06NDHDC001. The auditors also performed tests to determine
compliance with certain grant terms and provisions. The procedures performed were based on
the OIG’s “Agreed Upon Procedures for Corporation Awards to Grantees (including
Subgrantees) dated May 2009.” The engagement focused on the ANRC and three of its
subgrantees: San Francisco Chapter, Charlotte Chapter, and Chicago Chapter. We tested
ANRC transactions totaling $26,355. We also tested transactions totaling $7,149 for the San
Francisco Chapter, $11,464 for the Charlotte Chapter and $8,669 for the Chicago Chapter.

Exit Conference

We provided a draft report and discussed its contents with the Corporation, ANRC, and
applicable subgrantees at an exit conference on February 24, 2010, at ANRC’s offices in
Washington, DC.

ANRC provided its written response, which is included in Appendix A and summarized after
each recommendation. The Corporation did not respond to the individual findings and
recommendations. Its response is in Appendix B.




                                             3
~Clift.a
~ Gund~rson LLP
            Certified Public Accountants & Consultants




                                     INDEPENDENT ACCOUNTANT'S REPORT
                                   ON APPLYING AGREED-UPON PROCEDURES


Corporation for National and Community Service
Office of Inspector General

We have performed the procedures, which are agreed to by the OIG, solely to assist you in
evaluating certain information reported by ANRC in accordance with its Corporation grant terms
and provisions, and applicable laws and regulations, for the period from July 28, 2007, through
July 27, 2009. ANRC and its subgrantees are responsible for the accuracy and completeness
of the reported information. This engagement was conducted in accordance with the attestation
standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards, issued by the Comptroller General of the United States. The
sufficiency of the procedures is solely the responsibility of the OIG. Consequently, we make no
representation regarding the sufficiency of the procedures either for the purpose(s) enumerated
or for any other purpose.

The results of our procedures are described in the Schedule of Findings.

We were not engaged to, and did not, conduct an examination, the objective of which would be
the expression of an opinion on the reported information. Accordingly, we do not express such
an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the OIG, the Corporation, ANRC,
and the U.S. Congress, and is not intended to be, and should not be used by anyone other than
these specified parties.




Calverton, Maryland
February 24, 2010




11710 Belt.fodie Drin. Suite 300
Caioerton,MD 20 7 05-3106
tel: 301-931-2050                                                    4                        Me,nb.,r of



fax: 301-931-1710
                                                   Offices in 19 states and Washi.ngton, DC
                                                                                              B,nternat;ona,
www.cliftoncpa.com
                Consolidated Schedule of Award and Claimed Costs
                 Award Period July 28, 2007, through July 27, 2009
                   American National Red Cross – 06NDHDC001

                                                                            Reference
Authorized Budget (Corporation Funds)                          $1,708,795    Note 1

Claimed Federal Costs                                          $1,559,135    Note 2

Authorized Match Budget                                        $ 543,454     Note 3

Claimed Match Costs                                            $1,198,477    Note 4

Questioned Federal Costs:
 Timesheet exceptions                                $ 2,939                 Note 5
 National Sex Offender Search was incomplete or       42,704                 Note 6
   Missing
 Unequal payment of member living allowance             271                  Note 7
           Total Questioned Federal Costs                      $   45,914

Questioned Match Costs:
 Timesheet exceptions                                $ 2,068                 Note 5
 National Sex Offender Search was incomplete or       30,421                 Note 6
   Missing
 Unequal payment of member living allowance             105                  Note 7
           Total Questioned Match Costs                        $   32,594

Questioned Education Award:
 Timesheet exceptions                                $ 4,725                 Note 5
 National Sex Offender Search was incomplete or        9,450                 Note 6
   Missing
         Total Questioned Education Awards                     $   14,175

Interest forbearance on questioned education award             $    2,002    Note 6




                                             5
              Notes to Consolidated Schedule of Award and Claimed Costs

Notes

1. The approved budget amount represents the funding to the ANRC in accordance with the
   grant agreement.

2. Claimed costs represent ANRC’s reported Federal expenditures for the period of July 28,
   2007, through July 27, 2009.

3. The approved match budget amount represents the funding to the ANRC in accordance with
   the grant agreement.

4. Claimed costs represent the ANRC’s reported match expenditures for the period of July 28,
   2007, through July 27, 2009.

5. The Charlotte Chapter had $2,939 in questioned Federal cost, and $2,068 in questioned
   match cost for member living allowance and health benefits due to a missing supervisor or
   member signature on timesheet(s), and $4,725 in questioned cost for the related education
   award (See Finding 1).

6. The Charlotte and Chicago Chapters had $42,704 in Federal questioned member living
   allowances, $22,421 in match living allowances, $8,000 in match health benefits, and
   $9,450 in questioned education awards due to incomplete or missing National Sex Offender
   Registry searches. In addition, we are also questioning interest forbearance of $2,002
   related to one of the questioned education awards. Total questioned match cost was
   $30,421 (see Finding 1).

7. The Chicago Chapter had $271 in Federal questioned costs for member living allowance
   and $105 in questioned costs for the match living allowance due to unequal payment of
   member living allowances (see Finding 1).




                                             6
                                                                                                           Schedule A

                 Schedule of Award and Claimed Costs By Grantee/Subgrantee
                              July 28, 2007, through July 27, 2009

                          Claimed Costs         Questioned Costs          Questioned     Questioned
       Grantee/                                                           Education        Interest
     Subgrantee       Federal       Match       Federal      Match         Awards        Forbearance        Reference
  American National
  Red Cross           $ 278,257    $ 205,340    $        -   $        -      $       -        $        -
  Greenwich
  Chapter                24,604       27,612             -            -              -                 -      Note 1
  Atlanta Chapter        74,721       71,905             -            -              -                 -      Note 1
  Richmond Chapter       71,740       58,375             -            -              -                 -      Note 1
  New Orleans
  Chapter                41,090       32,005             -            -              -                 -      Note 1
  San Francisco
  Chapter               118,540       70,084             -            -              -                      Schedule B
  Santa Barbara
  Chapter                51,076       41,671             -            -              -                 -      Note 1
  Seattle Chapter       131,867      104,455             -            -              -                 -      Note 1
  St. Louis Chapter      29,150       20,558             -            -              -                 -      Note 1
  Chicago Chapter        83,356       56,918        24,891       16,844          9,450             2,002    Schedule C
  Dallas Chapter         63,425       24,666             -            -              -                 -      Note 1
  New York Chapter      132,345      128,463             -            -              -                 -      Note 1
  Peoria Chapter         43,824       29,465             -            -              -                 -      Note 1
  Tulsa Chapter          38,023       20,337             -            -              -                 -      Note 1
  Charlotte Chapter     105,283      118,186        21,023       15,750          4,725                 -    Schedule D
  Baltimore Chapter      60,760       47,065             -            -              -                 -      Note 1
  Cedar Rapids
  Chapter                34,791       29,548             -            -              -                 -      Note 1
  Springfield
  Chapter                53,233       29,021             -            -              -                 -      Note 1
  Philadelphia
  Chapter                123,050       82,803         -            -               -                   -      Note 1
        Totals        $1,559,135   $1,198,477   $45,914      $32,594         $14,175              $2,002


1. Transactions at this subgrantee were not tested.




                                                         7
                                                                                 Schedule B

                           Schedule of Award and Claimed Costs
                                  San Francisco Chapter
                            July 28, 2007, through July 27, 2009

                                                                           Reference
        Authorized Budget (Federal Funds)                      $118,352     Note 1

        Claimed Federal Costs                                  $118,540     Note 2

        Authorized Match Budget                                $ 69,510     Note 3

        Claimed Match Costs                                    $ 70,084     Note 4

        Questioned Federal Costs:
                    Total Questioned Federal Costs              $      0

        Questioned Match Costs:
                    Total Questioned Match Costs                $      0

        Questioned Education Award
                  Total Questioned Education Awards             $      0


Notes

1. The approved budget amount represents the funding to the San Francisco Chapter
   according to the grant agreement.

2. Claimed costs represent the San Francisco Chapter’s reported Federal expenditures for the
   period of July 28, 2007, through July 27, 2009. The claimed costs were in excess of budget
   due to a living allowance calculation error, but the grantee did not exceed the Federal
   budget overall, therefore, the amount was not questioned (See Finding 5 on page 26 for
   further details).

3. The approved match budget amount represents the funding to the San Francisco Chapter in
   accordance with the grant agreement.

4. Claimed costs represent the San Francisco Chapter’s reported match expenditures for the
   period of July 28, 2007, through July 27, 2009. The match cost exceeded budget, but there
   is no exception because our testing of match costs indicated that they were supported and
   allowable.




                                               8
                                                                            Schedule C

                          Schedule of Award and Claimed Costs
                                     Chicago Chapter
                           July 28, 2007, through July 27, 2009

                                                                            Reference
Authorized Budget (Federal Funds)                                 $89,570    Note 1

Claimed Federal Costs                                             $83,356    Note 2

Authorized Match Budget                                           $57,508    Note 3

Claimed Match Costs                                               $56,918    Note 4

Questioned Federal Costs:
  National Sex Offender Search was incomplete or
    Missing                                            $24,620               Note 5
  Members did not receive consistent living
    Allowance                                             271                Note 6
            Total Questioned Federal Costs                        $24,891

Questioned Match Costs:
  National Sex Offender Search was incomplete or
    Missing                                            $16,739               Note 5
  Members did not receive consistent living
    Allowance                                             105                Note 6
            Total Questioned Match Costs                          $16,844

Questioned Education Award
  National Sex Offender Search was incomplete or
    Missing                                            $ 9,450               Note 5
          Total Questioned Education Awards                       $ 9,450

  Interest Forbearance on Questioned Education Award              $ 2,002    Note 5




                                             9
Notes

1. The approved budget amount represents the funding to the Chicago Chapter in accordance
   with the grant agreement.

2. Claimed costs represent the Chicago Chapter’s reported Federal expenditures for the period
   of July 28, 2007, through July 27, 2009.

3. The approved match budget amount represents the funding to the Chicago Chapter in
   accordance with the grant agreement.

4. Claimed costs represent the Chicago Chapter’s reported match expenditures for the period
   of July 28, 2007, through July 27, 2009.

5. The Chicago Chapter had questioned costs of $24,620 in Federal and $12,684 in match
   costs for living allowances, $4,055 in match health benefit costs, and $9,450 in education
   awards due to an incomplete or missing National Sex Offender Registry search. In addition,
   there is questioned interest forbearance of $2,002 related to one of the questioned
   education awards. Total questioned match cost was $16,739 (see Finding 1).

6. The Chicago Chapter had $271 in Federal questioned costs for member living allowance
   and $105 in living allowance match costs due to unequal payment of member living
   allowances (see Finding 1).




                                             10
                                                                              Schedule D

                          Schedule of Award and Claimed Costs
                                     Charlotte Chapter
                           July 28, 2007, through July 27, 2009

                                                                             Reference
Authorized Budget (Federal Funds)                                 $126,163    Note 1

Claimed Federal Costs                                             $105,283    Note 2

Authorized Match Budget                                           $ 72,630    Note 3

Claimed Match Costs                                               $118,186    Note 4

Questioned Federal Costs:
  Timesheet exceptions                                $ 2,939                 Note 5
  National Sex Offender Search was incomplete or
    Missing                                            18,084                 Note 6
           Total Questioned Federal Costs                         $ 21,023

Questioned Match Costs:
  Timesheet exceptions                                $ 2,068                 Note 5
  National Sex Offender Search was incomplete or
    Missing                                            13,682                 Note 6
            Total Questioned Match Costs                          $ 15,750

Questioned Education Award
  Timesheet exceptions                                $ 4,725                 Note 5
         Total Questioned Education Awards                        $ 4,725




                                             11
Notes

1. The approved budget amount represents the funding to the Charlotte Chapter in accordance
   with the grant agreement.

2. Claimed costs represent the Charlotte Chapter’s reported Federal expenditures for the
   period of July 28, 2007, through July 27, 2009.

3. The approved match budget amount represents the funding to the Charlotte Chapter
   according to the grant agreement.

4. Claimed costs represent the Charlotte Chapter’s reported match expenditures for the period
   of July 28, 2007, through July 27, 2009. The match cost exceeded budget, but there is no
   exception because our testing of match costs indicated that they were supported and
   allowable.

5. The Charlotte Chapter had $2,939 in questioned Federal and $1,583 in match costs for
   member living allowances, $485 in match health benefit costs, and a $4,725 education
   award due to missing supervisor or member signature(s) on the timesheets (see Finding 1).

6. Charlotte had $18,084 in questioned Federal and $9,737 in match costs for member living
   allowances, and $3,945 in match health benefit costs due to incomplete or missing National
   Sex Offender Registry searches (see Finding 1).




                                             12
                                                                                    Schedule E

                                   Schedule of Findings


Finding 1 - Lack of adequate procedures or internal controls to ensure that service hours
were accounted for, members received health benefits, health benefit expense credits
were properly applied to grant expenses, criminal background checks and national sex
offender searches were performed in a timely manner and documented, and members
received consistent member living allowances.

Timesheet Exceptions

We tested 851 timesheets, representing 21 members at the three subgrantees, for proper
signatures and timely submission. The following table summarizes timesheet exceptions that
resulted from this testing:

                                       Questioned     Questioned
                                         Federal        Match       Questioned
                                         Member        Member         Match       Questioned
                                          Living        Living        Health      Education
      Chapter       Members   Notes     Allowance     Allowance      Benefits       Award
   San Francisco       2        A                 -             -             -             -
   Charlotte           2      B&D             2,204         1,187          366              -
   Charlotte           3       C                735           396          119          4,725
   Chicago             1        E                 -             -             -             -
           Totals      8                     $2,939        $1,583         $485        $4,725

   A. The member’s timesheet signature was not consistent with the member’s signature on
      the previous timesheets; which indicates that someone else signed on behalf of the
      member. No costs are being questioned, but it is noted as a non-compliance finding.

   B. The members’ names were typed-in as their signatures on the timesheets. There is no
      evidence that the members certified that they actually performed service during these
      hours, therefore, the hours recorded are questioned.

   C. Timesheets were missing the supervisors’ signature. There is no evidence that the
      supervisor verified that the members actually performed service during these hours,
      therefore, the hours recorded are questioned.

   D. The supervisor signed the timesheets, but did not indicate the date signed. No costs are
      questioned, but it is being noted as a non-compliance finding.

   E. The member signed the timesheet, but did not indicate the date signed. No costs are
      questioned, but it is being noted as a non-compliance finding.

Supervisors and members were not complying with the NPRC Handbook requirement related to
the signing and approval of members’ timesheets. In addition, the NPRC Handbook does not
require a date indicating when the member and supervisor sign the member’s timesheet.




                                             13
Criteria:

The AmeriCorps Special Provisions (Program Year (PY) 07 – 08, Section IV.C.2., Page 8 and
PY 08 – 09, Section IV.C.4., Page 9) state that the grantee must keep time and attendance
records on all AmeriCorps members in order to document their eligibility for in-service and post
service benefits. Time and attendance records must be signed and dated both by the member
and by an individual with oversight responsibilities for the member.

The NPRC Handbook (page 7) states, “A corps member supervisor verifies an AmeriCorps
member’s attendance by certifying that member’s service hour logs on a weekly basis. Certified
service hour logs must be signed by both the AmeriCorps member and the member’s
supervisor.”

The ANRC member agreement (page 5) states that upon successful completion of the term of
service, the member may be eligible to receive an education award of $4,725. Successful
completion of the term of service includes completion of at least 1,700 service hours.

Recommendations:

We recommend that the Corporation:

   1a.      Resolve the questioned costs in the amount of $2,939 in Federal and $1,583 in match
            member living allowance, $485 in match health benefits and a $4,725 in education
            award and recover any disallowed costs.

   1b.      Ensure ANRC strengthens its procedures related to members’ signatures on their
            timesheets, establishes what steps should be taken when member is not available to
            sign, and strengthens procedures to ensure timely review of all timesheets.

   1c.      Ensure ANRC updates the NPRC Handbook to include a requirement that members
            and supervisors enter dates when timesheets are signed.

ANRC Response:

ANRC agreed with the findings regarding the San Francisco and Chicago members. However,
ANRC disagreed with the finding that there is no evidence that the members in Charlotte
actually performed service during the weeks in question. In all cases, ANRC indicated that the
members recorded the time, recorded comments, and either the member or the supervisor
signed the timesheets. ANRC also stated that both the members and supervisors signed the
timesheets for the following time period, which included the cumulative totals. ANRC believed
that there was sufficient evidence that both the member and the supervisor ultimately
documented that the member engaged in allowable activities for the number of hours reported
on the timesheets. ANRC also indicated that it has implemented a new electronic timekeeping
system for the 2009-2010 program year that has access controls so only the member can enter
his or her own time. The system also contains reminder controls that inform the members when
they have not submitted their timesheets and informs the supervisors when they have not
approved them.




                                               14
Auditors’ Comments:

ANRC appeared to presume that the supervisor and member certified to the accuracy of the
cumulative total of hours that was reported on the timesheets and not just for the hours reported
for that time period. The Corporation should determine whether the new electronic timekeeping
system for the grantee and its subgrantees is implemented and effectively addresses the finding
conditions. The Corporation should consider the corrective actions taken, but continue to
resolve the questioned costs.

Health Benefits Not Provided to Members

The ANRC subgrantees we tested did not provide health benefits to full-time members for PY
07 – 08 in accordance with the grant provisions. The following exceptions were noted:

        The San Francisco Chapter did not provide health benefits to any of its members in PY
         07 – 08 until November 2007, resulting in a three-month period during which members
         were not covered.

        The Charlotte and Chicago Chapters each did not provide health benefits to one of its
         members for program year 07 – 08, and no waiver was obtained from either member.
         The Chapters did obtain waivers from the members after the auditors completed their
         testing.

The San Francisco Chapter indicated that there was some uncertainty as to who would be
paying the health benefits for the members (i.e., Chapter versus ANRC Headquarters). The
Charlotte and Chicago Chapters indicated that they did not request, or they did not maintain the
member’s request, to waive the health benefits.

There is a potential liability to the subgrantee for medical expenses that the members may have
incurred during the time when health benefit coverage was not provided.

Criteria:

The AmeriCorps Special Provisions, PY 07 – 08, Section IV.I.5., Page 16, states, “The grantee
must provide a health care policy to those full-time members not otherwise covered by a health
care policy at the time of enrollment into the AmeriCorps program, or to those members who
lose coverage during their term of service as a result of participating in the Program or through
no deliberate act of their own.”

Recommendation:

   1d.      We recommend that the Corporation work with ANRC to have the subgrantees
            determine and document whether their members waived their health benefits. If no
            waiver was obtained, the subgrantees should verify whether their members incurred
            any medical expenses during the period in which health benefits were not provided,
            and take action to reimburse the appropriate expenses to those members.

ANRC Response:

ANRC agreed with the exceptions noted, but indicated that the subgrantee did provide health
benefits to all full-time members who wanted it. ANRC indicated that San Francisco was

                                               15
delayed in enrolling members in the health insurance plan for PY 07-08, but did reimburse any
expenses that were submitted. In addition, San Francisco attempted, after our site visit, to
verify if any members incurred any additional medical expenses during the time period before
their health insurance was activated.

Auditors’ Comments:

The exceptions we noted are factually correct. No statement was made that the subgrantee
denied a member coverage when it was requested. We noted only that coverage was not
provided. The Corporation should confirm that ANRC and the San Francisco Chapter have
taken appropriate actions to address the recommendation.

Health Benefit Credit Not Applied to Grant Expenses

During our review of the claimed match costs from the chapter’s accounting records, we noted
the Charlotte Chapter had overpaid health benefits for members who did not finish their term or
were terminated from the AmeriCorps program from January to February 2009. The insurance
company credited the Charlotte Chapter’s account for the overpayment, which was used to pay
for the health benefits for the remaining members for the rest of the PY. However, by the end of
the PY, there was still a credit of $128 remaining.

The Charlotte Chapter did not track the balance of that credit and reduce its reported grant
health benefit expense accordingly in compliance with OMB Circular A-122. The remaining
credit of $128 for health benefits has left the Chapter with an overstatement in match costs for
PY 2008 – 2009 of $128. We noted that the subgrantee met its match cost requirements by a
significant amount; therefore, it is noted as a compliance finding.

Criteria:

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations (General Principles:
A.5.a.), states, “The term applicable credits refers to those receipts, or reduction of expenditures
which operate to offset or reduce expense items that are allocable to awards as direct or indirect
costs. Typical examples of such transactions are: purchase discounts, rebates or allowances,
recoveries or indemnities on losses, insurance refunds, and adjustments of overpayments or
erroneous charges. To the extent that such credits accruing or received by the organization
relate to allowable cost, they shall be credited to the Federal Government either as a cost
reduction or cash refund, as appropriate.”

Recommendation:

   1e.      We recommend that the Corporation ensure that ANRC provides guidance to the
            subgrantees on how credits are to be accounted for and reported in accordance with
            OMB Circular A-122.

ANRC Response:

ANRC concurred with the finding and indicated that it has provided the recommended guidance
to subgrantees.




                                                16
Auditors’ Comments:

ANRC’s proposed action should address the finding condition. The Corporation should follow
up to confirm that ANRC has provided the appropriate guidance to the subgrantees.

Criminal Background Check Performed After Member Enrollment

Two ANRC subgrantees we tested did not properly complete the criminal background check
upon member enrollment. Details are as follows:

      In five of the seven member files tested, the San Francisco Chapter did not perform the
       criminal background check until after the member was enrolled for PY 07 – 08. In four
       instances, the criminal background check was completed four days after enrollment and
       the last one was completed 26 days after enrollment.

      In three of the seven member files tested, the Chicago Chapter did not perform the
       criminal background check until five months after the member was enrolled for PY 07 –
       08.

      In two of the seven member files tested, the Chicago Chapter did not perform the
       criminal background checks until two to eight days after the members started serving for
       PY 08 – 09.

Both chapters informed us that not obtaining the background checks before the members began
their service was an oversight.

By not conducting criminal background checks prior to enrolling its members, the subgrantee
places itself, the grantee, the Corporation, and vulnerable populations being served at risk. No
costs were questioned, but it is being noted as a non-compliance finding.

Criteria:

The subgrantee’s FY 2008 Host Site Agreement (PY 07 – 08), Section IV.3.b., states the Host
Site's obligations within and in addition to the AmeriCorps Grant Provisions that require
background checks prior to enrolling members.

45 C.F.R. 2540.200 states that the award recipient must apply suitability criteria relating to
criminal history to an individual applying for, or serving in, a position for which an individual
receives a Corporation grant-funded living allowance and which involves recurring access to
children, persons age 60 and older, or individuals with disabilities. 45 C.F.R. 2540.203(a) states
the State criminal registry check must be conducted on an individual who enrolls in, or is hired
by, the NPRC program after November 23, 2007.




                                               17
Recommendation:
   1f.   We recommend that the Corporation work with ANRC to provide training to its
         subgrantees to ensure that a member cannot be enrolled or start earning service hours
         until a criminal background check is completed, and that procedures are implemented
         to ensure full compliance.
ANRC Response:
ANRC concurred with the finding, but stated that guidance from the Corporation indicated that a
member may start supervised service before background check results have been received.
In its response to the draft report, ANRC included the following excerpt from the FAQ FINAL
RULE ON NATIONAL SERVICE CRIMINAL HISTORY CHECKS, dated 10/29/07: “Because
state criminal registry check results can sometimes take weeks or more to complete, the rule
does not prohibit an individual from serving while that check is pending. However, the individual
may not have unsupervised access to children, persons age 60 and older, or individuals with
disabilities while waiting for the results of the state criminal registry check."
Auditors’ Comments:
ANRC appears to have acted in good faith based on the guidance provided by the Corporation.
That guidance allows a person to serve prior to determining their suitability to serve, which is
contrary to the Federal regulation. The Corporation should ensure that its guidance to grantees
is compliant and consistent with the Federal regulations. In addition, the Corporation should
confirm that ANRC has provided appropriate training to the subgrantees and implemented
effective procedures consistent with the Federal regulation to prevent a recurrence of the same
condition.
Incomplete or Missing National Sex Offender Search
In seven of the member files we reviewed, documentation of a National Sex Offender search
was either missing at the Charlotte and Chicago chapters, or the searches that were performed
did not cover all 50 states. In the latter case, the member file indicated that the database for
certain states was not accessible at the time the online searches were conducted. Given the
incomplete searches, we questioned the following living allowances, health benefits and
education award costs, as of November 23, 2007:
                   Questioned     Questioned
                     Federal        Match       Questioned
                     Member        Member         Match       Questioned    Questioned
     Sample           Living        Living        Health      Education       Interest
     Member         Allowance     Allowance      Benefits       Award       Forbearance     Note
    Charlotte #4        $ 3,756       $ 2,022       $ 893         $     -         $     -    1
    Charlotte #5          3,674         1,978         1,012             -               -
    Charlotte #6          2,939         1,583           765             -               -    1
    Charlotte #7          7,715         4,154         1,275             -               -    1
     Subtotal          $18,084         $9,737       $3,945        $     -         $     -
    Chicago #5            7,647         3,940         1,267             -               -
    Chicago #6            8,393         4,324         1,394         4,725           2,002
    Chicago #7            8,580         4,420         1,394         4,725               -
     Subtotal          $24,620        $12,684       $4,055        $9,450          $2,002
      Totals           $42,704        $22,421       $8,000        $9,450          $2,002

Note 1: These costs are net of those questioned under Timesheet Exceptions (see Page 13).
                                                 18
The Charlotte Chapter indicated that it was an oversight on their part for three members for
whom the search was incomplete. For the one member whose search document was missing,
the Chapter indicated that the documentation had been misplaced. The Chicago Chapter stated
that it was an oversight in the cases of the three incomplete searches. Both Chapters went
online and obtained the missing National Sex Offender search information for each member and
provided this information to the auditors after testing was completed.
Criteria:
45 C.F.R. 2540.203(b) states that the National Sex Offender Public Registry check must be
conducted on an individual who is serving, or applies to serve, in a covered position on or after
November 23, 2007. 45 C.F.R. 2540.201 states that any individual who is registered, or
required to be registered, on a State sex offender registry is deemed unsuitable for, and may
not serve in, a position covered by suitability criteria.
Recommendations:
We recommend that the Corporation:
   1g.      Ensure ANRC enhances its NPRC Handbook to stress that National Sex Offender
            Searches must be complete to include follow-up for non-reporting States.
   1h.      Ensure that ANRC strengthens its monitoring efforts to ascertain subgrantees’
            compliance with grantee’s “Background Checks” procedures requiring certification that:
            1) State criminal registry checks were conducted and documented in the member files
               or in separate files that protect each member’s privacy; and
            2) National Sex Offender searches encompassing all 50 states, as well as Guam,
               Puerto Rico, and the District of Columbia, were conducted and documented in the
               member’s file or a privately maintained file.
   1i.      Resolve the questioned costs in the amounts of $42,704 in Federal and $22,421 in
            matched member living allowances, $8,000 in matched health benefits, $9,450 in
            education awards, and $2,002 in interest forbearance, and recover any disallowed
            costs.
ANRC Response:

ANRC concurred with the finding, but did not agree with the questioned costs. It indicated that
additional information has been discovered since the time of the audit that confirms that ANRC
implemented procedures according to the prevailing Corporation guidance as follows:

Excerpt from FAQ FINAL RULE ON NATIONAL SERVICE CRIMINAL HISTORY CHECKS,
10/29/07, states,"4.12 What steps should I take if I discover that several States' sex offender
registry sites are inoperative when I am conducting the NSOPR check on an applicant? You
must document in writing that you conducted the search and further indicate the States whose
sites were inoperative. If any of these States is either the State in which your program is
operating or one where the applicant resides, you must continue the search in order to ensure
that the applicant is not listed on those States' registries. If the inoperative sites include other
States, merely document the names of these States for the file, as this would satisfy the rule's
requirement. However, as a best practice, it would be prudent to re-check the NSOPR at a later
date in order to rule out the possibility that the applicant may be registered in that State. "


                                                 19
ANRC indicated that it made a good faith effort to follow the guidance from the Corporation.
ANRC also re-ran the checks on all members in question during our testing and in all cases they
were cleared and eligible to serve.
Auditors’ Comments:
The Corporation should verify that ANRC has revised its NPRC handbook and strengthened its
monitoring efforts to ensure that National Sex Offender Public Registry searches are conducted
in accordance with Federal regulations. Given the guidance provided by the Corporation to
ANRC, we believe that recommendation 1.i. should be revised to state, “Revise Corporation
guidance for grantees on National Service Criminal History Checks to fully comply with the
Federal regulation for a National Sex Offender Public Registry check.” A national check does
not mean only some states, but all states.
Unequal Payment of Living Allowance to Members
Two of the ANRC subgrantees provided unequal member living allowance payments. The
following table summarizes the Charlotte and Chicago Chapters questioned member living
allowances (MLA):

                                                 MLA that
                                                  should
    Program                            MLA       have been      Overpaid/    Federal     Match
      Year       Chapter     Member    Paid        paid        (Underpaid)   Amount     Amount
     07 – 08     Chicago       #1     $ 4,622       $ 4,522          $100       $ 72        $28
     07 – 08     Chicago       #4      12,711        12,435           276        199         77
   Total 07-08                        $17,333       $16,957          $376       $271      $105

     08 – 09     Charlotte     #4     $ 6,910        $ 7,348       ($ 438)    ($ 285)    ($153)
     08 – 09     Charlotte     #6       7,122          7,348         (226)      (147)      (79)
     08 – 09     Chicago       #5      11,587         11,870         (283)      (187)      (96)
     08 – 09     Chicago       #6      12,717         13,000         (283)      (187)      (96)
   Total 08-09                        $38,336        $39,566      ($1,230)     ($806)    ($424)

                                           Total Difference         ($854)    ($535)     ($319)

Criteria:
The AmeriCorps Special Provisions (PY 07 – 08, Section IV.I.1., Page 15 and PY 08 – 09
Section IV. F.1., Page 11) state,
       A living allowance is not a wage. Programs must not pay a living allowance on
       an hourly basis. Programs should pay the living allowance in regular increments,
       such as weekly or bi-weekly, paying an increased increment only on the basis of
       increased living expenses such as food, housing, or transportation. Payments
       should not fluctuate based on the number of hours served in a particular time
       period, and must cease when a member concludes a term of service.
       If a member serves 1700 hours but is permitted to conclude a term of service
       before the originally agreed upon date, the program may not provide a “lump
       sum” payment to the member. Similarly, if a member enrolls after the program’s
       start date, the program must provide regular living allowance payments from the
       member’s start date and may not increase the member’s living allowance
       incremental payment or provide a lump sum to “make up” any missed payments.

                                                20
The ANRC member agreement (Section V B.1 and B.1.c.) states that the member will receive a
living allowance of up to $13,000 and this is based on a complete term of service. The living
allowance will be distributed biweekly. The gross pay period amount will be approximately
$565.

The ANRC member agreement (Section VIII.E.) states that if any member discontinues the term
of service for any reason other than an approved compelling personal circumstance, the
member will cease to receive program benefits and will receive no portion of the education
award.

Recommendations:

We recommend that the Corporation take the following actions:

   1j.   Direct the Charlotte Chapter to make payments to the appropriate members to address
         the underpayments of $432 in Federal and $232 in matched living allowance.

   1k.   Direct the Chicago Chapter to make payments to the appropriate members to address
         the underpayments of $374 in Federal and $192 in matched living allowance.

   1l.   Resolve questioned costs in the amount of $271 in Federal and $105 in matched
         member living allowance, and recover any disallowed costs.

   1m. Direct the grantee to develop more effective policies and procedures to ensure
       member living allowance payments are consistent with the AmeriCorps grant
       provisions and the ANRC member agreement. In addition, the grantee should
       strengthen its monitoring efforts, including a review of subgrantees’ member living
       allowance payments, to ensure that allowances are paid consistently.

ANRC Response:

ANRC indicated that the Charlotte Chapter administered the payments according to program
policy. The Chicago Chapter indicated that its members were paid the correct amounts, but
offered no further explanation to dispute the finding or clarify its response.

Auditors’ Comments:

We believe that the member living allowance should be consistent with grant provisions and the
member agreements. The Corporation should ensure that ANRC and the subgrantees address
the underpayments made to the members. The Corporation also should resolve the questioned
Federal and match member living allowance costs and recover any disallowed costs. In
addition, the Corporation should consider revising the grant provisions related to member living
allowance to provide clearer guidance to the grantees.


Finding 2 – Late submission of the exit/end-of-term-of-service form.

The ANRC Charlotte Chapter did not submit the approved Exit/End-of-Term-of-Service form in
WBRS by the due date. Management at the ANRC headquarters indicated that it was an
oversight. Not entering member exit forms within 30 days (now into the My AmeriCorps Portal)
may result in sanctions to the grantee, up to and including suspension or termination.

                                              21
Criteria:

The AmeriCorps Special Provisions (PY 08 – 09, Section IV.C.1., Page 8) indicate that the
grantee must notify the Corporation’s National Service Trust within 30 days of a member’s
selection for, completion of, suspension from, or release from, a term of service.

Recommendation:

   2   We recommend that the Corporation ensure that ANRC implements effective control
       procedures for its subgrantees so that member forms (i.e., enrollment, change in status,
       or exit) are submitted on time through the My AmeriCorps Portal.

ANRC Response:

ANRC concurred with the finding. It has added a monitoring step to address the cause of the
finding.

Auditors’ Comments:

The Corporation should verify that ANRC’s monitoring step has been implemented and is
effective in preventing a recurrence of the finding.


Finding 3 – Lack of documentation of members attending pre-service orientation.

For all 21 members tested, the ANRC subgrantees did not provide documentation that their
members received a pre-service orientation that addressed specific issues required by the grant
provisions. However, there was evidence that the members did receive the member agreement
and a handbook that covers those requirements.

The lack of documentation is due to the chapters not realizing that they needed to maintain
documentation to support that specific orientation requirements were addressed and that the
members were present during the sessions. The Chapters plan to implement an orientation
sign-in sheet to document when the orientation occurs, what it addresses, and who attends.

Criteria:

The AmeriCorps Special Provisions (PY 07 – 08, Section IV.D.3., Page 10 and PY 08 – 09,
referring to the Policy FAQ entitled Orientation) state, "The grantee must conduct an orientation
for members and comply with any pre-service orientation or training required by the
Corporation. This orientation should be designed to enhance member security and sensitivity to
the community. Orientation should cover member rights and responsibilities, including the
program's code of conduct, prohibited activities (including those specified in the regulations),
requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.), suspension and
termination from service, grievance procedures, sexual harassment, other non-discrimination
issues, and other topics as necessary."

Recommendations:

We recommend that the Corporation:

                                               22
   3a.      Ensure that ANRC establishes a pre-service orientation process that specifically
            addresses all requirements noted in the grant provisions, and establishes
            requirements to document when the orientation occurred, what was covered, and to
            verify that members were present.

   3b.      Include a requirement for an orientation sign-in sheet that addresses the orientation
            requirements in the grant provisions and in the grantee handbook to provide guidance
            for future grantees.

ANRC Response:

ANRC agreed with the finding and indicated that it has amended its procedures to incorporate
the recommendation.

Auditors’ Comments:

The Corporation should verify that the proposed procedures have been implemented and are
operating effectively. In addition, the Corporation should consider updating its grant provisions
and the grantee handbook to clarify its pre-service orientation requirements.


Finding 4 – Noncompliance with record retention requirements, late submission of
Financial Status Report, and noncompliance with travel policy.

Noncompliance with Record Retention Policy

ANRC Headquarters’ Records Management Policy indicates that documents related to grants
are to be maintained for five years from date of the grant. The Chapters comply with the
Corporation’s grant provisions, which require records to be retained for three years from the
date of the submission of the final expenditure report. The difference in policy was due to an
oversight by ANRC management.

The purpose of the record retention policy is to ensure the grant costs can be supported by the
organization and are available for review or audit. A policy that is inconsistent with the
Corporation’s provisions may result in the grantee having difficulties in obtaining documentation
to support grant costs when required.

Criteria:

The AmeriCorps General Provisions (PY 07 – 08, Section V.E., Page 26 and PY 08 – 09
referring to CFR 45§2543.53 (b.)) indicate that the grantee must retain and make available all
financial records, supporting documentation, statistical records, evaluation and program
performance data, member information and personnel records, for three years from the date of
the submission of the final expenditure report.

Recommendation:

   4a.      We recommend that the Corporation instruct ANRC to revise its Records Management
            Policy to comply with record retention requirements in the grant provisions.


                                                23
ANRC Response:

ANRC concurred with the finding.

Auditors’ Comments:

The Corporation should verify that ANRC has revised its Records Management Policy to
address the finding condition.

Late Submission of Financial Status Report

In two instances, ANRC did not submit its Financial Status Reports on time (i.e., one and two
days late). ANRC indicated that the late submission of the FSRs was due to delays in collecting
information from the chapters, which prevented it from submitting the reports when due.

By submitting the FSR (now the Federal Financial Report) after the deadline, the grantee may
delay the reimbursement of the semi-annual grant costs, which could have an adverse effect on
the grantee’s ability to operate its program.

Criteria:

The AmeriCorps Special Provisions (PY 07 – 08, Section IV.N.1.a., Page 22) states a grantee
shall submit semi-annual cumulative financial status reports, summarizing expenditures during
the reporting period using eGrants. Financial Status Report deadlines are as follows:

                 Due Date                   Reporting Period Covered
                 April 30                   Start of grant through March 31
                 October 31                 April 1 – September 30

Recommendation:

   4b.      We recommend that the Corporation ensure that ANRC develops effective control
            procedures to ensure that it submits its Federal Financial Report when it is due.

ANRC Response:

ANRC agreed with the finding, and indicated that it has amended its procedures to address the
recommendation.

Auditors’ Comments:

The Corporation should verify that ANRC has amended its procedures to address the finding
condition.

Noncompliance with Travel Policy

In testing one travel expense, we found that the traveling employee returned a rental car without
refueling the vehicle.




                                               24
The purpose of the ANRC Travel policy is “to ensure the most appropriate and economical use
of Red Cross funds when traveling on behalf of Red Cross.” The refueling service charge was
$37.84. As a result, ANRC incurred additional cost that could have been avoided.

Criteria:

ANRC’s Staff Travel and Reimbursement Policy (II.G.2.b.) states that, “Car companies charge a
premium to refill partially or empty gas tanks. To avoid excess fees, travelers are required to
refuel at local gas stations prior to returning the rental vehicle.”

Recommendation:

4c.   We recommend that the Corporation work with ANRC to strengthen its controls for
      compliance with its travel policy.

ANRC Response:

ANRC concurred with the finding, and indicated that it has ensured that current NPRC program
staff have reviewed the travel policy.

Auditors’ Comments:

The Corporation should verify that the corrective actions taken by ANRC are sufficient to
address the finding condition.


Finding 5 - Lack of controls over reporting of Federal costs.

Federal Cost Claimed In Excess of Award Amount

We compared the Federal award budget amount to the actual cost claimed for PYs 07 – 08 and
08 – 09 and found that the San Francisco Chapter exceeded the Federal award budget for
member living allowance for PY 07 – 08 by $187, as follows:

                               Program Year 2007 – 2008
                     Federal Award         Federal Costs            Balance
                        Amount                Claimed
                        $84,053               $84,240                 ($187)

No amendments have been made to the award agreement. ANRC management stated an error
was made when the subgrantee’s budget was calculated. Given that the grantee was still well
below its total budget award from the Corporation, we did not question the amount.

Criteria:

The AmeriCorps National Preparedness & Response Corps FY 2008 Host Site Cooperative
Agreement (dated August 2, 2007), for the San Francisco Chapter states that the Corporation
funding for the chapter will be $84,053.




                                              25
Recommendation:

   5.    We recommend that the Corporation instruct ANRC to strengthen its controls and
         monitoring procedures to ensure that its subgrantees do not claim expenses in excess
         of their award amount.

ANRC Response:

ANRC concurred with the finding. It indicated that it has changed the methodology for creating
the budget in the Host Site Agreements, which should eliminate the rounding errors in
calculating the host site budget.

Auditors’ Comments:

ANRC has taken action to address the budget calculation process that resulted in understating
the budget. However, this action does not strengthen the control to ensure that expenses will
not exceed the award amount. The Corporation should work with ANRC to ensure that such
controls are in place so that the claimed amount exceeding the award amount will not be paid.




                                             26
                         APPENDIX A
_______________________________________________________________
              AMERICAN NATIONAL RED CROSS’
              RESPONSE TO THE DRAFT REPORT
                                                                                              American Red Cros s




+
                                                          A meriCorps"Nati onal Preparedne ss and Respons e Corps
       American                                                                                Chap ter Operations
                                                                                          Washington, D.C. 20006
       Red Cross                                                                                   (202) 303-5813




TO:            Stuart Axenfeld
               Assistant Inspector General for Audit
               Corporation for National and Community Service

Draft Audit Report Review and Comment
Agreed Upon Procedures Review of Corporation Grants
American National Red Cross
Submitted: April 23, 2010

Prepared By:

Jt::;yP~
Director Chapter Quality Assurance and NPRC AmeriCorps Program Director

 '171;<      (/;1:/   IJ
MeghJr: McG~d~ic~~h
NPRC AmeriCorps Senior Associate and Program Manager


Finding 1: Lack of adequate procedures or internal controls to ensure service hours
were accounted for, members received health benefits, health expense credits were
properly applied to grant expenses, criminal background checks and national sex
offender registry searches were properly performed in a timely manner and
documented and members received consistent living allowances.

Response to Finding 1:

I. Timesheet Exceptions; We agree with the findings regarding the San Francisco and
   Chicago members and implemented a new electronic timekeeping system in the
   2009-2010 program year which eliminates these issues. The system has automatic
   controls that only the member has access to record and approve their own time and
   the date of all approvals are automatically time stamped. In light of additional review
   of the timesheets, we respectfully disagree with the finding that there is no evidence
   that the members in Charlotte actually performed service during the weeks in
   question . In all cases the members recorded the time, recorded comments and either
   the member or the supervisor signed the timesheets for the weeks in question , and
   both the members and supervisors signed the time sheets for the following time period
   which included the cumulative totals. While the chapter did not comply with the
   specific instructions provided, there is evidence that both the member and the
   supervi sor ultimately documented agreement that the member engaged in allowable
   activities for the number of hours indicated. Since the time in question we have
   implemented an on-line timekeeping system which addresses the recommendations
   made by the OIG.
                                                                                           American Red Cross




+
                                                         AmeriCorps"Nationa l Preparedness and Response Corps
       American                                                                             Chapl er Operations
                                                                                        Washington, D.C. 20006
       Red Cross                                                                                (202) 303-58 13




2. Health Benefits; We disagree with the finding that we did not provide health benefits
   to all full time members who wanted it. We do agree with the exceptions noted. San
   Francisco was delayed in enrolling members in the health insurance plan in 07-08 but
   did reimburse any expenses that were submitted. Per the auditor's recommendation,
   San Francisco has attempted to verify if members incurred any additional medical
   expenses during the time period before their health insurance was activated. For the
   other two chapters, the members declined coverage, but the chapter did not have a file
   copy of the signed waiver. We have since obtained and submitted waivers for all
   members in question from Chicago and Charlotte.

3. Health Benefit Not Applied to Grant Expenses; We agree with the finding and have
   provided the recommended guidance to subgrantees.

4. Criminal Background Check Performed After Member Enrollment; We agree with
   the finding but would like to point out that per guidance from the Corporation,
   members may start supervised service before background checks results are received.
   Our policy is that the member' s service is contingent upon successful completion of
   the Criminal Background Check and we have revised our procedures to further
   emphasize that checks must be initiated before members begin service.

5. Incomplete Or Missing National Sex Offender Search; We agree with the finding but
   do not agree with the questioned costs. We made a good faith effort to follow the
   guidance from the Corporation. Our procedures instruct subgrantees to complete
   these checks before members start and sign off in the enrollment paperwork that the
   checks are clear for each member. Training was also provided when the new rules
   went into effect. These oversights where checks were not rerun when some state
   databases were down were not intentional or due to lack of training but were human
   error. Additional information has come to light since the time of the audit which
   confirms that the Red Cross implemented the procedure at the time according to the
   prevailing guidance for how to handle checks when some state databases are down.
   We reran the checks on all members in question during the audit and in all cases they
   were clear and eligible to serve. We have amended our existing training for "How to
   Conduct NSOPR Checks" to highlight the minimum requirements, best practices
   expectations, and documentation requirements.

6. Unequal Payments of Living Allowance To Members; We do not agree with the
   finding.

   Recommendations:

   lao Resolve questioned costs

   We disagree that there is no evidence of the member having served during the time in
   question. Regarding the member timesheets in Charlotte for which there are
   questioned costs, the time was logged for the time period in question and was signed


                                           2
                                                                                        American Red Cross
                                                        AmeriCorps'Nalional Preparedness and Response Corps




+   American
    Red Cross
                                                                                        Chapter Operations
                                                                                     Washington, D.C, 20006
                                                                                             (202) 303-5813




by either the member or the supervisor. Member comments were included in the
reflections section as well. In addition, the timesheets for the time period following
those periods included a cumulative total and was signed by both the member and the
supervisor. In the cases where the education award is questioned , the total cumulative
time was also signed off on by both the member and the supervisor on the final time
log of the term and equaled sufficient time to qualify for the Education Award. Our
member timesheet are set up to automatically roll forward the cumulative total hours
as well as the cumulative subtotals for service, fund raising and training hours.

           A TT l: Sample time sheet

lb. Ensure ARC strengthens its procedures related to members signatures on
their timesheets, establishes steps that should be taken when member not
available to sign and strengthens procedures to ensure timely review of all
timesheets.

    a. Evidence addressed

    The Red Cross implemented the OnCorps electronic timekeeping system which
    addresses this finding during the 2009-20 10 program year. The system is Internet
    accessible which eliminates delays due to not being physically present when time
    sheets are due and has controls built in for reminders when time has not been
    approved by either the member or the supervisor. Included is a role for the Host
    Site Manager to oversee the process and ensure timely review. We recently
    amended our OnCorps procedures to include instructions for what to do in the
    event the member or the supervi sor is not available per the auditor's
    recommendation ..

    b. Procedure/Training

    Each chapter was oriented individually to the timekeeping system roles and
    functionality when implementing the system last fall and adding their members
    and supervisors. A training tutorial is also available for users and the system is
    fully operational.

    The following procedures were created and distributed as part of the above
    process and are posted for ongoing access. Both have been revised to include the
    instructions on what to do in the unlikely event that the member or supervisor is
    not available.

           ATT 2: OnCorps Time Keeping Procedures
           ATT 3: OnCorps Time Log Roles

    The revised procedures were distributed and reviewed as part of the "NPRC
    Compliance Review" for Host Site Managers conducted April 21 , 2010.


                                          3
                                                                                         American Red Cross




+
                                                       AmeriCorps·National Prep aredness and Re sponse Corps
    American                                                                              Chapter Operations
                                                                                     Washington, D.C. 20006
    Red Cross                                                                                (202) 303-5813




    c. Proof of implementation

            ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
            ATT 5: Email distribution of "NPRC Compliance Overview"
            A TT 6: "NP RC Compliance Overview" presentation

    Ie. Ensure ARC updates the NPRC handbook to include a requirement that
    members and supervisors enter dates when timesheets are signed.

    a. Evidence addressed

    This recommendation is no longer applicable as the On Corps timekeeping system
    automatically records the date the time log was approved by both the member and
    the supervisor.

    b. Training/Procedure - N/A

    c. Proof of implementation - See I b


    Id. Document and determine if waived health care benefit - or verify
    whether member had any outstanding expenses.

    a. Evidence addressed

    San Francisco has attempted to verify if members incurred any additional medical
    expenses during the time period before their health insurance was activated,
    however the members have not responded. They did however, reimburse one
    member who submitted expenses at the time and we have no reason to believe
    that others would not have done the same. For the other two chapters, the
    members declined coverage and we have since obtained and submitted waivers
    for all members in question from Chicago and Charlotte.

           ATT 7: San Francisco follow-up letter

    b. Training/Procedure

    The existing procedures include thi s requirement and chapters attest to obtaining
    the waiver. However, we modified the start up procedures to include the potential
    consequences of not maintaining this information on file. We also included a
    reminder in our "NPR C Compliance Overview" distributed April 21.

           ATT 8: FY IO Stmi Up Procedures
           ATT 6: Slide #8 "NPRC Compliance Review "



                                         4
                                                                                               American Red Cross




+
                                                             AmeriCorps"National Preparedn ess and Response Corps
    American                                                                                    Chapter Operations
                                                                                            Wash ington, D.C. 20006
    Red Cross                                                                                       (202) 303-5813




    c. Proof of implementation -

            ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
            ATT 5: Email distribution of "NPRC Compliance Overview"

    Ie. Give guidance to subgrantees on how credits are to be accounted for and
    reported in accordance with OMB circular -133.

    a. Evidence addressed - N/A

    b. Training/Procedure

        We revised our SOP on Financial Monitoring to reference this information
        and included information on the NPRC Compliance Review issued April 21,
        2010.

            ATT 7: Revised SOP Financial Monitoring
            ATT 8: Slide # 13 in NPRC Compliance Overview

    c. Proof of implementation

            ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
            ATT 5: Email distribution of "NPRC Compliance Review "

    If. Provide training to subgrantees to ensure member cannot be enrolled or
    start earning service hours until background check complete and procedures
    implemented to ensure full compliance.

    a. Evidence addressed

    Red Cross program procedures require completion of a State Criminal Hi story
    Background Check and attestation by the host site that the checks were completed
    and cleared. Per guidance from the Corporation, a member may begin service
    while awaiting results of a State Criminal Background Check, however may not
    have unsupervised access to vulnerable populations. Red Cross policy is
    consistent with thi s guidance.

    Excerpt from FAQ FINAL RULE ON NATIONAL SERVICE CRIMINAL
    HISTORY CHECKS, 10/29/07

    UBecause state criminal registry checks results can sometimes take weeks or more to
    complete, the rule does not prohibit an individual from serving while that check is
    pending However, the individual may not have unsupervised access to children, persons
    age 60 and older, or individuals with disabilities while waitingfor the results of the state
    criminal registry check. "



                                             5
                                                                                               American Red Cross
                                                              AmeriCorps"National Prepa redness and Response Corps




+   American
    RedCroH
                                                                                               Chapter Operations
                                                                                            Washington, D.C. 20006
                                                                                                    (202 ) 303-5813




    This was also included in the Corporation's initial training materials on the new
    rule and affirmed in the recently updated FAQ's.

    b. Training/Procedure

    The Corporation's materials were used in the establishment of the Red Cross
    policy and provision of training to introduce the Criminal Background Check
    requirement when the rule went into effect. Additionally, FYI1 Start Up
    procedures were revi sed to further emphasize the policy, the FY11 Enrollment
    Attestation Form was rearranged to draw greater attention to timing of the check,
    and requirements were reviewed in the "NPRC Compliance Review ", distributed
    April 21, 2010.

             ATT 9: Slide #14, Host Chapter Web Conference, November 14, 2007
             ATTIO: FYI1 Start Up Procedures
             ATT 11: FY II Enrollment Attestation form
             ATT 6: Slide #8 "NPRC Compliance Review "

    c. Proof of implementation

             ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
             ATT 5: Email distribution of "NPRC Compliance Review "


    Ig. Enhance NPRC handbook to stress that Sex Offender Registry Searches
    must be complete to include non reporting states.

    a. Evidence addressed

     Excerpt from FAQ FINAL RULE ON NATIONAL SERVICE CRIMINAL
     HISTORY CHECKS, 10/29/07
     "4.12 What steps should 1 take if 1 discover that several Sllltes ' sex offender registry
    sites are inoperative when 1 a11l conducting the NSOPR check on an applicant?
     You must document in writing that you conducted the search and further indicate the
    States whose sites were inoperative. If any of these States is either the Slllte in which your
    program is operating or one where the applicant resides, you must continue the search ill
     order to ensure that the applicant is not listed on those States' registries. If the
     inoperative sites include other States, merely document the names of these States jor the
    jile, as this would satisfy the rule's requirement. However, as a best practice, i/ would be
    prudent to re-check the NSOPR at a later date in order to rule out the possibility that the
    applicallt may be registered in that State. "

    This was further clarified in recent FAQ update.




                                              6
                                                                                         American Red Cfoss




+
                                                         AmeriCorps"Nauonal Preparedness and Respon se Corps
      American                                                                            Chapter Opera ti ons
                                                                                      washington, D.C. 20006
      Red Cross                                                                               (202) 303-5813




       FAQ FINAL RULE ON NATIONAL SERVICE CRIMINAL HISTORY CHECKS,
       April 15, 2010


       b. Training/Procedure

               ATT 6: Slide #8 "NP RC Compliance Review "
               A TT 11: FY 11 Enrollment Attestation form
               ATT 12: How to Conduct a NSOPR Check - presentation

       c. Proof of implementation

               ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
               ATT 5: Email distribution of "NPRC Compliance Overview"


Ih. Ensure monitoring efforts to ascertain subgrantees compliance with background
checks procedures requiring certification that:
    o State Criminal registry checks were conducted and documented in the members
       files
    o Sex Offender Registry Checks encompassing all 50 states, as well as Guam,
       Puerto Rico and the District of Columbia, were conducted and documented in the
       members files

       a.   Evidence addressed - N/A

       b. Training/Procedure

       Monitoring is accomplished through the Enrollment Attestation Fonn completed
       for each member and member file checks during site visits. The FY 11 attestation
       form was rearranged to further emphasize timing for completion of both checks
       and was revised to define what a complete NSOPR Check involves.

               ATTll: FYl1 Enrollment Attestation Form

       c. Proof of implementation

               ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing

Ii. Resolve questioned costs

      We disagree that there are questioned costs as we made good faith effort to meet
      the requirements. We have provided evidence that all questioned checks have
      been rerun and all were clear, indicating that all members were eligible (were not
      required to register as a Sex Offender). In addition, we implemented the checks


                                           7
                                                                                         American Red Cross




+
                                                        AmeriCorps "Na!ional Preparedness and Response Corps
      American                                                                            ChClpler Operations
                                                                                      Washington, D.C , 20006
      Red Cross                                                                               (202) 303-5813




      according to the Corporation guidance that checks need not be rerun to meet the
      rule.

1j. Direct Charlotte Chapter to make payments to members to address
underpaymen ts

      We disagree with the finding. The chapter administered the payments according
      to program policy. We will revise the member agreement for next program year to
      clarify how living allowance payments will be handled for early exit.

             ATT 13: Email fi'om Corporation



      1k. Direct Chicago chapter to make payments to address underpayments

      We disagree with the finding. Members were paid correct amounts.

             ATT 13: Email from Corporation


      11. Resolve questioned costs of $271 - Chicago overpayment

      We disagree with the finding members were paid correct amounts.

             ATT 14: Spreadsheet from Chicago


      1m. Develop more effective polices and procedures to ensure payments are
      consistent with grant provisions and the member agreement. Strengthen
      monitoring efforts, including review of member living allowance payments.

      a. Evidence addressed

      b. Training/Procedure

      Procedures were modified this program year to include an initi al review the
      member living allowance increments reflected in the first month ' s Program
      Expense Reports received from chapters. Ifthere were discrepancies in what they
      were expected to be, follow up was done with the chapter. This procedure will be
      continued next year. Member agreements will be modified in the next program
      year to address how the living allowance for the last pay period will be
      administered if the member leaves early.

      c. Proof of implementation


                                          8
                                                                                          American Red 0055
                                                        Am eriCorps"National Preparedness and Response Corps




+     American
      Red Cross
                                                                                           Chapter Operation s
                                                                                       W ashington, D.C. 20006
                                                                                               (202) 303-5813




          ATT 15 FY 10 Living Allowance Distribution Tracking Tool

Finding 2: Late submission of exit/end of term service form

      Response to Finding 2 We agree with the finding but would like to note that our
      current procedures and accountabilities resulted in all but one member tested
      being exited on time and require only minor adjustment to reduce the risk of this
      recurring. We have updated our procedures to include an additional monitoring
      step.


      Recommendation 2: Implement effective control procedures so that member
      forms are properly submitted on time (enrollment, change of status, exit).

      a. Evidence addressed
      b. Training/Procedure

      We already have start up and exit procedures which were provided during the
      course of the audit. A monitoring step was added to the Closeout Timeline to
      address the cause of the finding. We also included the timely enrollment and exit
      in the "NPRC Compliance Review distributed Apri l 21 , 2010

          ATT 16: Closeout Timeline Revised April 21, 2010

      c. Proof of implementation

          ATT 4: Screen Shot ofNPRC AmeriColps website procedures listing

Finding 3 - Lack of documentation of members attending pre-service orientation

      Response to Finding: We agree with the finding and have amended our
      procedures to incorporate the recommendation.

      Recommendations:

      3a. Ensure pre-service orientation process that specifically addresses all
      requirements noted in the grant provisions and establishes requirements to
      document when the orientation occurred, what was covered and verify
      members present.

      a. Evidence addressed

      FY I 0 Start up Procedures include the requirement for the provision of an
      orientation and the Guidelines for Chapter Orientation of Members includes a list


                                          9
                                                                                             American Red Cross
                                                        Ame riCorps "Nation al Prep aredness and Response Corps




+     American
      Red Cross
                                                                                              Chapter Operations
                                                                                          Washington. D ,C. 20006
                                                                                                  (202) 303-5813




      of required topics and a presentation which covered all required topics was added
      in the 2009-2010 program year for use during the orientation process. For the
      years included in the audit as well as the current year, th e member handbook that
      includes the required informati on was also provided as part of the orientation
      process and a signed receipt is required which was in the member files. As part of
      the monitoring plan, chapters attested to the provision of the handbook and the
      collection of the receipt on the Member Enrollment Attestation Form.

             ATTl7: Required Information presentation
             ATT 8 : Start up procedures FY 10

      b. Training/Procedure

      Clarification was included in the "NPR C Compliance Review" as to the
      expectation for documentation that the orientation occurred, what was covered
      and verification that members were present and the FY11 Start Up Procedures
      have been amended to reflect thi s requirement.

      c. Proof of implementation
            ATT 4: Screen Shot ofNPRC AmeriCorps website procedures listing
            ATT 5: Email distribution of "NPRC Compliance Review "


      ATTl7: Required Information presentation
      ATT : Start up procedures FY I 0



Finding 4-
      • Non compliance with record retention requirements,
      • Late submission of FSR and
      • Non compliance with travel policy.

      Response to Finding 4
      I. Non Compliance with Record Retention Requirements; We agree with the
         finding. However the correct date for retention of the grant records for the
         2009-2010 program year was reflected in the Host Site Agreements signed at
         the beginning of the program year to provide clarity on retention expectations.
         In addition we have implemented the recommendation.
      2. Late Submission of Financial Status Report; We agree with the finding but
         would like to note that the reports in questions were late by one and two days
         and controls put into place since 2008 have resulted in subsequent FSRs being
         submitted on time. We have updated our procedures per the recommendation.
      3. Noncompliance with Travel Policy; We agree with the finding and have
         ensured that current NPRC program staff have reviewed the policy.


                                          10
                                                                                               Ameri ca n Red 0055




+
                                                           AmeriCorps' Nation a l Preparedness and Response Corps
      American                                                                                  Chapter Opera tion s
                                                                                            Wash ington, D.C. 20006
      Red Cross                                                                                      (202) 303-5813




       Recommendations:

       4a. Revise Record Management Policy to comply with record retention
       requirements in the grant provisions.

       a. Evidence addressed
       b. Training/Procedure

       The Supplement to the Records Management Policy has been updated to reflect
       the grant requirements. The infonnation was included in the NPRC Compliance
       Review distributed April 21 , 2010 and posted for future reference.

       c. Proof of implementation

       ATT 18: Revised Supplement to the Record Retention Policy, Rev 04 21 10
       ATT 6: Slide # 14 "NPRC Compliance Review "

4b. Develop effective internal control procedure to ensure that it submits its Federal
Financial Report when it is due.

       a. Evidence addressed
       b. Training/Procedure

       The timeline and steps for on time submission ofthe FSR are reflected in the
       AmeriCorps FSR Reconciliation Policy promUlgated by the Shared Service
       Center - Restricted Funds Unit (SSC-RF) last updated in July 2008 and provided
       during the audit. The NPRC Financial Monitoring Procedure has since been
       revised to include responsibility for monitoring implementation of the SSC-RF
       policy previously.

       c. Proof of implementation

       ATT 19: Revised Financial Monitoring Procedure

4c. Strengthen controls for compliance with its travel policy.

       a. Evidence addressed

       b. Training/Procedure

       Current NPRC staff have reviewed the travel policy and are familiar with this
       requirement. The Financial Monitoring Procedure has been amended to require
       inclusion of review of the travel policy as part of the orientation of program staff
       that will be traveling or approving travel expense reports.


                                            II
                                                                                              American Red Cross




+
                                                        AmeriCorps ' Nati on a l Preparedness and Re sponse Corps
                                                                                               Chapter Operations
      American                                                                             Washington, D.C . 20006
      Red Cross                                                                                   (202) 303-581 3




       c. Proof of implementation

      ATT 20: Attestation that travel polices have been reviewed
      ATT 21: Financial Monitoring procedure, page 2.


Finding 5 - Lacks controls over reporting federal costs

      Response to Finding: We agree that the San Francisco Chapter exceeded the
      Federal award budget for the member living allowance reflected in their sub
      recipient agreement by $187.00. There was a rounding error in the calculation
      and there was no amendment made to their agreement. .

      Recommendation 5: Strengthen controls and monitoring procedures to
      ensure subgrantees do not claim expenses in excess of their award amount.

      a. Evidence addressed

          In the current program year, we changed the methodology for creating the
          budget in the Host Site Agreements and now reimburse the same flat rate for
          each member. This eliminates rounding errors in calculating the host site
          budget which was the cause of the finding .

      b. Training/Procedure

          The following monitoring procedure was implemented at the beginning of the
          2009-20 I 0 program year and addresses the recommendation to strengthen
          monitoring. :
          At the point of final approval and before the PER is submitted for payment,
          the NPRC program director logs monthly PER 's from chapters on a
          spreadsheet which monitors federal costs claimed and matching funds
          compared to budget. This provides the monitoring necessary to ensure costs
          claimed do not exceed the amount awarded.

          ATT22 FY I 0 PER Tracking Worksheet - See FSR Tabs

      c. Proof of implementation




                                          12
                         APPENDIX B
______________________________________________________________
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
              RESPONSE TO THE DRAFT REPORT
                                 NATIONAL&:
                                 COMMUNITY
                                 SERVICBt tt

To:

From:         ~lif!:W~.j{liSs                            ants Management

Cc.:          WilliL         n, Acting C ef Financial     cer
              Rocco Gaudio, Deputy CFO, or            eld Financial Management
              Lois Nernbhard, Acting Director, AmeriCorps·State and National
              Frank Trinity, General COWlSe1
              Bridgette Roy. Audit Resolution Coordinator

Date:         April 20, 20 I 0

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
              Awarded to the American National Red Cross


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to the American National Red Cross. We will work witl!
the grantee to develop corrective actions. We will respond to all findings and
recommendations in our management decision when the audit workipg papers are
provided and the final audit is issued.
